OFFICE OF
INSPECTOR GENERAL
Semiannual Report to Congress
apri l 1 , 2 0 1 0 – se p te mbe r 30, 2010
TABLE OF CONTENTS
Foreword ......................................................................................................................................... i

Executive Summary .......................................................................................................................2

Introduction ...................................................................................................................................8

Activities .......................................................................................................................................10

Audits ...........................................................................................................................................13

Investigations ................................................................................................................................23

Top Ten Management Challenges .............................................................................................29

Reporting Requirements ............................................................................................................34




 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.

SEMIANNUAL REPORT TO CONGRESS                                                                                                           Page 1
April 1, 2010 to September 30, 2010
EXECUTIVE SUMMARY
This is the 44rd Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of NARA’s top ten management challenges is included as
well. The highlights of our major functions are summarized below.

                                           Audits
In this reporting period, the Audit Division continued to examine the development of NARA’s
Electronic Records Archives (ERA) system, the security of NARA’s Information Technology
(IT) systems, and to assess the economy and efficiency of NARA’s programs. Our work this
period had a positive impact on agency operations and related controls in these critical areas.
Recommendations directed to NARA officials will, upon adoption, translate into reduced risk
for the agency and increased levels of security and control over NARA’s financial assets, IT
systems programs and operations.

During the reporting period we issued the following audit reports and management letters in
three general categories: (a) Information Technology, (b) Electronic Records Archives, and (c)
Programs and Operations.

Information Technology

    •   NARA’s Network Infrastructure. Appropriate physical security and access
        controls had not been implemented on NARA’s network, which left network
        equipment vulnerable to potential compromise, theft, or damage. These weaknesses
        could jeopardize the availability of NARANET NARA’s computer network. We
        also identified several opportunities to improve security and operation of the
        network. We made 18 recommendations to assist NARA in providing appropriate
        management and technical controls over the network. Management concurred with
        17 of the 18 recommendations. (OIG Report #10-07, dated April 28, 2010. See page
        14. )

    •   Backup Computer Tape Disposal. NARA was not properly or adequately
        disposing of used or failed computer backup tapes. In response to a complaint to the
        OIG Office of Investigations, we found NARA failed to adequately control the
        disposal of these tapes, and NARA can provide no assurance that sensitive
        information has not inappropriately left NARA’s control. Our analysis revealed
        confused and contradictory beliefs and understanding of what was and was not
        allowed in terms of computer backup tape disposal at NARA. (Management Letter
        #OI-10-03, dated May 13, 2010.)

Electronic Records Archives

    •   Concerns with the ERA system’s Ability to Conduct Full-Text Searches. The OIG
        advised the Archivist of our concerns as to the capacity and capability of the ERA
        System to search the records which it will eventually store. The ERA Requirements
        Document defines the system’s core requirements, and based on our interpretation, it

SEMIANNUAL REPORT TO CONGRESS                                                            Page 2
April 1, 2010 to September 30, 2010
EXECUTIVE SUMMARY
        calls for a system which would ingest, preserve, and facilitate authorized user search,
        retrieval and access to all data in each record maintained in the ERA. For example, we
        believe ERA should be able to search the full text of an email’s body, not just the subject
        line or delivery addresses. It had come to our attention NARA program officials may
        decide to limit ERA’s searching functions short of full-text searches due to the costs
        involved. With Final Operation Capacity looming in 2012, NARA had yet to make this
        crucial decision, nor had officials alerted appropriators of the resource issues involved.
        (Management Letter #10-10, dated April 23, 2010.)

    •   Inadequate Contingency Planning for the ERA System. Due to inadequate
        contingency planning, ERA officials lack assurance the ERA System can be successfully
        restored at an alternative location should its primary site be unavailable. Such a
        significant risk severely limits the reliability of the system. Specifically, the audit found:
        (a) the ERA Business Impact Analysis (BIA), central to determining what recovery
        strategies should be implemented to ensure availability, was incomplete and lacks
        current system information; (b) it is unknown if the ERA System (in its entirety) can be
        successfully restored from backup tapes; and (c) there is not an alternative backup site.
        (Audit Report #10-11, dated April 29, 2010. See page 15.)

    •   No Alternative Backup Site for the ERA System. NARA expended over $2.8 million
        dollars to lease space for the ERA system at the Stennis Space Center in Mississippi that
        was never put to use. Originally, Congress provided funds for NARA to begin working
        with the Naval Oceanographic Office at Stennis, and the facility was to serve as the
        primary site for the ERA System. However, the primary ERA site shifted to Rocket
        Center, West Virginia, and the Stennis site was never utilized as either the primary or
        back-up ERA site. Thus, over $2.8 million was expended for leased space that was
        never used, and NARA continues to lack an alternative ERA back-up site. (Audit Report
        #10-16, dated August 18, 2010. See page 16.)

    •   Similar Developmental Issues Exist for both NARA’s ERA Program and the FBI’s
        Sentinel Project. This audit focused on assessing whether (a) the ERA Program is
        meeting cost and schedule requirements, and (b) NARA and contractor management
        officials are taking timely action to correct any actual or potential problems with
        program performance. In several ways, NARA's experience with developing the ERA
        System is similar to that of the Federal Bureau of Investigation’s (FBI’s) development of
        the Sentinel Information and Investigative Case Management System, both of which are
        being developed by the same contractor. In reports of the FBI's implementation of the
        Sentinel Project, the U.S. Department of Justice (DOJ) OIG has expressed concerns
        about Sentinel's overall progress, aggressive schedule, increased costs, and inability to
        satisfy user requirements, similar to the concerns we have about the ERA Program.
        (Audit Report #10-12, dated May 17, 2010. See page 17.)

    •   Defense Contract Audit Agency (DCAA) Audits. The Defense Contract Audit
        Agency (DCAA) reviewed contractor invoices submitted for work on the ERA
        development contract. The invoice reviews consisted of verifying direct labor charges,
        subcontractor labor charges, other direct costs, and overhead. We requested DCAA’s

SEMIANNUAL REPORT TO CONGRESS                                                                 Page 3
April 1, 2010 to September 30, 2010
EXECUTIVE SUMMARY
        assistance with this effort, because of their experience with performing this type of
        review and their access to contractor records. During the period, the DCAA issued 3
        audit reports detailing the results of their reviews, none of which contained any
        significant findings. (DCAA Audit Report Numbers 6271-2010N17900001, 6271-
        2010N17900002 and 6271-2010N23000002 dated May 26, 2010, June 25, 2010 and
        September 10, 2010 respectively.)

Programs and Operations

    •   NARA’s Contract for Information Technology and Telecommunication Support
        Services (ITTSS). Our review of NARA’s $56 million ITTSS contract disclosed
        that: (a) agency officials had the opportunity to select a contractual arrangement with
        less inherent risk to NARA for acquiring these services; (b) NARA officials did not
        prepare a Determination and Findings (D&F) justifying their use of a Time-and-
        Materials (T&M) component to this acquisition, and their documented rational for
        using other than a firm-fixed-price (FFP) order or performance-based order was
        inadequate; (c) the Quality Assurance Surveillance Plan (QASP) for the contract did
        not adequately describe the methodology, frequency, documentation required, or
        reporting on requirements; (d) contractor performance was not being evaluated on
        the basis of achieving the Service Level Agreements (SLAs) in the contract; (e) the
        surveillance process was poorly documented and not well-organized for review; (f)
        the contractor was not complying fully with the contract’s Invoice Submission
        Requirements 1; and (g) the contractor failed to satisfy contract requirements related
        to the delivery of data items. We made six recommendations to assist the agency in
        correcting the reported deficiencies and to ensure the interest of the Government is
        protected. While management generally disagreed with the audit findings, they
        generally concurred with the recommendations. (Audit Report #10-05, dated August
        18, 2010. See page 19.)

    •   Security at Archives I and II. Through this management letter, we informed the
        Archivist of serious safety and security risks noted during our ongoing fieldwork for
        the Audit of the Security Force Contract. Specifically, NARA has no assurance
        contractor employees (a) are proficient enough with their weapons to perform their
        duties, (b) have the physical capacity and capabilities needed to respond to the
        variety of emergency situations, and (c) would be able to respond appropriately
        during an incident. (Management Letter #10-18, dated September 16, 2010.)

    •   Process for Providing and Accounting for Information Provided to Researchers.
        As a result of inadequate controls over records provided to researchers, NARA cannot
        adequately ensure the records are properly accounted for, nor can the agency
        appropriately safeguard them. We made four recommendations designed to strengthen
        internal control weaknesses defined in the report. Management concurred with all four
        recommendations. (Audit Report #10-14, dated August 6, 2010. See page 19.)


1 The Contracting Officer reported NARA officials verbally waived these requirements for the contractor.

SEMIANNUAL REPORT TO CONGRESS                                                                              Page 4
April 1, 2010 to September 30, 2010
EXECUTIVE SUMMARY
    •   National Historical Publications and Records Commission (NHPRC) Grant No.
        RB-50061-09. We questioned the entire cost incurred to date on this grant, due to
        misuse of grant funds and poor management of the grant, to include a lack of supporting
        documentation for labor cost. An OIG investigation did not reveal direct evidence of
        intentional misuse of Federal grant funds by any person; however, the evidence
        suggested particular grantee staff were aware their actions were inappropriate. Based on
        our recommendation, NHPRC terminated this grant and a decision by NHPRC to recover
        the costs questioned is pending. (Audit Report #10-15, dated June 23, 2010. See page
        18.)

    •   Accuracy of NARA’s Performance Measurement Data. To assess the accuracy and
        reliability of performance data entered into NARA’s Performance Measurement and
        Reporting System (PMRS), we reviewed nine of NARA’s 37 FY 2009 performance
        metrics. Of those nine, we identified problems with five metrics. We made two
        recommendations to assist with ensuring the accuracy and reliability of future data
        entered into PMRS. Management concurred with both recommendations. (Audit Report
        #10-13, dated July 15, 2010. See page 21.)

    •   NARA’s Internal Control Program. At the end of the Federal Managers’ Financial
        Integrity Act (FMFIA) reporting period, September 30, 2009, NARA did not fully
        comply with the requirements of the Office of Management and Budget’s (OMB)
        Circular A-123, Management’s Responsibility for Internal Control, as a formalized
        internal control program did not exist. Since then, NARA has made progress and should
        be commended for establishing an implementation plan for a comprehensive internal
        control program. However, while the plan was established, much more remains to be
        done. Further, management has not closed the open audit recommendations from the last
        two years’ audit reports. As a result of these conditions, NARA continues to exhibit
        weaknesses in internal controls first identified in FY 2007 that degrade the effectiveness
        of internal controls and the accuracy of office assurance statements. We made two
        recommendations. Management concurred with both recommendations. (Audit Report
        #10-19, dated September 29, 2010. See page 21.)




SEMIANNUAL REPORT TO CONGRESS                                                             Page 5
April 1, 2010 to September 30, 2010
EXECUTIVE SUMMARY
                                      Investigations
During this reporting period, the Office of Investigations (OI) opened 14 investigations and
closed 24 investigations, five of which are closed pending an administrative response from
NARA. The OI also received 74 complaints and closed 37 complaints, eight of which are
closed pending an administrative response from NARA. Fourteen NARA holdings were
recovered during the period. The OI worked with the Veterans Administration, the FBI, the
Federal Protective Service, the U.S. Secret Service, and the Department of Justice Computer
Crime and Intellectual Property Section, as well as the Offices of Inspectors General at the
Veterans Administration, the Treasury Inspector General for Tax Administration, and NASA.
The OI also worked with a number of local and state law enforcement entities to include: the
Maryland National Capitol Park and Planning Police, the Oak Forest Illinois Police Department,
the Office of the State’s Attorney in Cook County, Illinois, the Lewisville Texas Police
Department, and the Baltimore County Police Department. At the close of the period, there
remained 54 open complaints and 29 open investigations.

The OI completed investigations in a variety of areas including the following:

    •   Distribution of Pornography via Government Computer
    •   Improper Disposal of Computer Hard Drives
    •   False/Double billing
    •   Access to Pornographic Websites on Government Computer
    •   Unlawful Intrusion into NARA’s Network
    •   Threats to a NARA Employee
    •   Theft of NARA Holdings
    •   Theft of Construction Materials
    •   Grant Fraud
    •   Wrongful Access of IRS Records in Transit to NARA
    •   Theft from a Presidential Library

The Office of Investigations is presently staffed with five 1811 series Special Agents, an
investigative archivist, a computer forensic analyst, and an Assistant Inspector General for
Investigations. An additional agent was selected and is scheduled to report during the next
reporting cycle. This team provides investigative coverage to an approximately 3,000-person,
44-facility, nationwide agency that includes the Presidential library system. This broad-based
area of operations presents a demanding investigative challenge to provide real-time coverage
when multiple incidents occur requiring a rapid response. The OI conducts both responsive and
proactive investigations in order to support our statutory mission. At present our law-
enforcement authority is through special deputation from the U.S. Marshals Service. We
anticipate submitting our application to the Attorney General for statutory law enforcement
authority during the next reporting period. We are based in NARA’s College Park, Maryland
facility and staff a satellite office in NARA’s Washington, D.C. facility.




SEMIANNUAL REPORT TO CONGRESS                                                          Page 6
April 1, 2010 to September 30, 2010
EXECUTIVE SUMMARY
                                  Management Assistance
•   Referred five cases from the Archival Recovery Team to the Office of General Counsel
    pursuant to NARA Directive 1462.

•   Members of the Office of Investigations, and particularly, the Archival Recovery Team,
    meet routinely with staff from NARA’s Holdings Protection Program in an effort to marshal
    our collective resources to discover new avenues and approaches to providing adequate
    security and control of our nation’s historical records.

•   Responded to multiple requests for OIG records under the Freedom of Information Act

•   Provided comment and input into several NARA directives covering a variety of topics such
    as personal property management and NARA’s fee structure for copies of records.

•   Reviewed and provided comment on NARA process to identify and release records
    pertaining to Elena Kagan.

•   Presented at NARA’s Supervisory Fundamentals Seminar. Taught new supervisors about
    the role of the OIG and the supervisor’s responsibilities.




SEMIANNUAL REPORT TO CONGRESS                                                        Page 7
April 1, 2010 to September 30, 2010
INTRODUCTION
        About the National Archives and Records Administration
Mission
The National Archives and Records Administration serves American democracy by safeguarding
and preserving the records of our Government, ensuring the people can discover, use, and learn
from this documentary heritage. Further, the agency ensures continuing access to the essential
documentation of the rights of American citizens and the actions of their government; and
supports democracy, promotes civic education, and facilitates historical understanding of our
national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps citizens
hold them accountable. It ensures continuing access to essential evidence documenting the rights
of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 200 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to 31 million cubic feet of records. These holdings also include, among other things,
letters, reports, architectural/engineering drawings, maps and charts; moving images and sound
recordings; and photographic images. Additionally, NARA maintains hundreds of thousands of
artifact items and over 6.7 billion logical data records. The number of records born and stored
solely in the electronic world will only continue to grow, thus NARA is developing the
Electronic Record Archives to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2010, NARA had 39
million online visits in addition to hosting 3.5 million traditional museum visitors, all while
responding to 1.5 million written requests from the public. NARA also publishes the Federal
Register and other legal and reference documents, forming a vital link between the Federal
Government and those affected by its regulations and actions. Through the National Historical
Publications and Records Commission, NARA helps preserve and publish non-Federal historical
documents that also constitute an important part of our national heritage. Additionally, NARA
administers 13 Presidential libraries preserving the papers and other historical materials of all
past Presidents since Herbert Hoover.

Resources
In fiscal year (FY) 2010, NARA was appropriated an annual budget of approximately $469.8
million and 3,214 (estimated) Full-time Equivalents (FTEs), including appropriations of $339
million for operations, $85 million for the Electronic Records Archives (ERA) program, $27.5
million for repairs and restorations of facilities, and $13 million for grants. NARA operates 44
facilities nationwide.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 8
April 1, 2010 to September 30, 2010
INTRODUCTION
                  About the Office of Inspector General (OIG)
The OIG Mission
The OIG’s mission is to ensure NARA protects and preserves the items belonging in our
holdings, while safely providing the American people with the opportunity to discover, use and
learn from this documentary heritage. We accomplish this by providing high-quality, objective
audits and investigations; and serving as an independent, internal advocate for economy,
efficiency, and effectiveness.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act of
2008, establishes the OIG’s independent role and general responsibilities. The Inspector General
reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA’s
performance, makes recommendations for improvements, and follows up to ensure economical,
efficient, and effective operations and compliance with laws, policies, and regulations. In
particular, the OIG:

•   assesses the effectiveness, efficiency, and economy of NARA programs and operations

•   recommends improvements in policies and procedures to enhance operations and correct
    deficiencies

•   recommends cost savings through greater efficiency and economy of operations, alternative
    use of resources, and collection actions; and

•   investigates and recommends legal and management actions to correct fraud, waste, abuse, or
    mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency, helping
ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
In FY 2010, a separate appropriation was established for the OIG in compliance with the
Inspector General Reform Act of 2008, previously funds for the OIG were in NARA’s Operating
Expenses appropriation. For FY 2010, Congress provided $4.1 million for the OIG, including
resources for three additional positions and raising the OIG FTEs level from 19 to 23. During
the period the OIG began the process to fill the three positions. At current staffing, the OIG has
one Inspector General, one support staff, 10 FTEs devoted to audits, eight FTEs devoted to
investigations, and a counsel to the Inspector General.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 9
April 1, 2010 to September 30, 2010
ACTIVITIES
              Involvement in the Inspector General Community
Co-hosted Annual CIGIE Conference
The IG co-hosted the President’s Counsel of Inspectors General on Integrity and Efficiency’s
(CIGIE’s) annual conference with the Veteran’s Administration OIG. This year’s conference
took place in Lancaster, PA and was a huge success, bringing together and training IG’s from
across the entire federal community.

CIGIE Investigations Committee
The IG served as a member of the CIGIE Investigations Committee. The mission of the
Investigations Committee is to advise the IG community on issues involving investigative
functions, establishing investigative guidelines, and promoting best practices.

Assistant Inspectors General for Investigations (AIGI) Committee
The AIGI served as vice-chair to the AIGI Committee, which serves as a standing subcommittee
to the CIGIE Investigations Committee. The AIGI Committee provides guidance, assistance and
support to the CIGIE Investigations Committee in the performance of its duties. In addition, the
AIGI Committee serves as a conduit for suggestions, issues and concerns that affect the OIG
investigations community to the CIGIE Investigations Committee for appropriate action.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel is an active participant in meetings of the CCIG, and communicated regularly
with fellow members. In these meetings multiple topics were raised, discussed, and addressed,
including the operation and staffing of the new Counsel of Inspectors General on Integrity and
Efficiency, launching a new interactive CCIG website, changes to various Federal laws and
policies, the training of IG criminal investigators, and various high-profile investigations in the
IG community.

Presentation at National Ethics Conference
The OIG counsel presented at the Office of Government Ethics’ National Ethics Conference on a
panel discussion on “Cooperation among IG's, Ethics Officials, and Management in Pursuing
Ethics Violations.”

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. During the period, the AIGA attended FAEC’s meeting to discuss topics such as
financial statement audit issues, audit training, opinion reports on internal controls, and
information security.

SEMIANNUAL REPORT TO CONGRESS                                                               Page 10
April 1, 2010 to September 30, 2010
ACTIVITIES
                                      Peer Review Information

NARA OIG Peer Review of the U.S. International Trade Commission’s OIG
Audit Organization
In accordance with the Government Accountability Office’s Government Auditing Standards
(GAS) and CIGIE guidelines, we reviewed the system of quality control for the audit
organization of the International Trade Commission (ITC) OIG in effect for the year ending
September 30, 2009. A system of quality control encompasses an OIG’s organizational structure
and the policies adopted and procedures established to provide it with reasonable assurance of
conforming to GAS.

However, we determined that we could not express an opinion of the audit organization of the
ITC OIG because the audit organization has not conducted any audits in the past five years.
Based on GAS, the external peer review requirement is effective within three years from the date
an audit organization begins field work on its first assignment in accordance with GAS for both
financial and performance audit practices. Since no audits had been performed in the requisite
time frame, we did not express an opinion on the design of or compliance with the system of
quality control. (OIG Audit Report #10-09, dated May 27, 2010)

Peer Review of NARA OIG’s Audit Organization
NARA OIG’s audit organization was last peer reviewed by the Library of Congress in April of
2008. There are no outstanding recommendations from this review.

Peer Review of NARA OIG’s Office of Investigations
NARA OIG’s Office of Investigations was last peer reviewed by the National Science
Foundation in May of 2008. There are no outstanding recommendations from this review.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 11
April 1, 2010 to September 30, 2010
ACTIVITIES
                           Response to Congressional Items

Audits Provided
The Information Policy, Census, and National Archives Subcommittee of the House Oversight
and Government Reform Committee requested, and was provided, various OIG reports. This
included copies of all OIG products produced on the Electronic Records Archives, OIG Audit
10-04 on Electronic Records Management, and OIG Audit 10-05 on NARA’s contract for
Information Technology and Telecommunication Support Services (ITTSS).

Information on NARA’s Freedom of Information Act Policies
Senator Charles Grassley and Representative Darrell Issa requested information on NARA’s
Freedom of Information Act (FOIA) policies, specifically whether or not any political appointees
review FOIA requests or responses. NARA has only one political appointee, the Archivist of the
United States, who is not involved in the decision-making or the process for handling FOIA
requests.

Information on Open Audit Recommendations

Representative Darrell Issa requested, and was provided with, information on various open
and/or unimplemented OIG audit recommendations.

Inventory of Commercial Activities

We submitted to OMB our FY 2010 inventory of commercial activities performed by OIG
employees. The Federal Activities Inventory Reform Act of 1998, Pub.L. 105-270 (the
FAIRAct), requires Federal agencies to annually prepare and submit to OMB inventories of
commercial activities performed by Federal employees. OMB reviews each agency’s inventory
and consults with the agency regarding its content. OMB is then required to list the available
inventories in the Federal Register, and the agency head must transmit a copy of the inventory to
the Congress and make it available to the public. NARA forwarded its FY 2010 inventory to
OMB and published it to the NARA website during this reporting period.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 12
April 1, 2010 to September 30, 2010
AUDITS
                                                  Overview
This period, we issued:

    • ten final audit reports, and
    • three management letters. 2

We completed fieldwork on the following audits:

    •   an audit of NARANet Server Upgrade Project to determine whether the project was
        developed in accordance with NARA requirements, and whether system development has
        been adequately managed and monitored to ensure requirements are met in the most
        economical and efficient manner;

    •   a Network Vulnerability Assessment and Penetration Test audit to assess whether an
        intruder could intentionally or accidentally gain access to NARA’s network or systems;

    •   an audit of NARA’s Oversight of Selected Grantees’ Use of Grant Funds to determine
        whether management controls are adequate to ensure (1) grants are properly
        administered, (2) grant goals and objectives are adequately met, and (3) grant funds are
        adequately accounted for and expended; and

    •   an audit of the Movement of Freight Shipments to assess whether controls are effective
        and efficient to ensure NARA obtains the best value and most economical prices for the
        movement of freight.

We continued work on the following assignments:

    •   an audit of NARA’s FY 2010 Financial Statements to report on the annual consolidated
        financial statement of the entity, the internal control structure, and compliance with laws
        and regulations;

    •   an audit of NARA’s compliance with the Federal Information Security Management Act,
        to assess the adequacy of controls over information security and compliance with
        information security policies, procedures, standards, and guidelines; and

    •   an audit of NARA’s Security Force Contract, to determine whether NARA is properly
        administering the contract and whether the contractor is performing in accordance with
        contract requirements.




2 Management letters are used to address issues which need to be quickly brought to the Archivist’s or
management’s attention.

SEMIANNUAL REPORT TO CONGRESS                                                                            Page 13
April 1, 2010 to September 30, 2010
AUDITS
                                      Audit Summaries
NARA’s Network Infrastructure
The objective of our audit was to determine whether NARA had effectively implemented
appropriate physical security and access controls to protect network resources. In addition, we
also assessed whether network components provided adequate network security.

To observe physical security controls protecting network resources, we visited five Presidential
Libraries, three Record Centers, and two Regional Archives facilities. At each of these facilities,
we observed the location of network equipment and assessed whether the equipment was
adequately protected from interruptions in computer services, physical damage, and theft. We
also visited the data center supporting one of NARA’s critical systems and reviewed physical
security and environmental controls over the equipment. For those locations with a wireless
network, we reviewed the controls in place to secure the wireless network.

To review access controls in place to protect network resources, we reviewed whether system
and network administrators were appropriately identified and authenticated. Specifically, we
reviewed administrator accounts on the servers located at the field sites we visited. We also
reviewed the mechanisms in place used to authenticate to the network routers, switches, and
firewalls. To review the security of network components, we attempted to review the placement
of routers and switches within the network. Our review in this area was limited by the fact
NARA does not possess a complete network drawing. We also reviewed the configuration of the
main NARA firewall and determined whether the rule sets were documented.

Our review revealed that appropriate physical security and access controls had not been
implemented which left network equipment vulnerable to potential compromise, theft, or
damage. These weaknesses could jeopardize the availability of NARAnet, NARA’s computer
network. We also identified several opportunities to improve security and operation of the
network. Specifically:
    •   the Chief Information Officer and her staff were unable to effectively manage and assess
        the overall network security of NARA’s infrastructure because a complete and accurate
        network diagram was not maintained;
    •   improper firewall management and configuration created vulnerabilities in the network
        and increased the amount of time it takes traffic to pass into the network;
    •   firewall log files were not being reviewed to identify inappropriate activity or potential
        threats;
    •   multiple weaknesses in logical access controls increased the risk of unauthorized access
        to network devices and servers; and
    •   additional physical security and environmental controls are needed at NARA Regional
        Archives, Record Centers, and Presidential Libraries to restrict physical access to
        computer resources and protect them from intentional or unintentional loss or damage.



SEMIANNUAL REPORT TO CONGRESS                                                                Page 14
April 1, 2010 to September 30, 2010
AUDITS
The report made 18 recommendations to assist NARA in providing appropriate management and
technical controls over the network. Management concurred with 17 of the 18
recommendations. (Audit Report #10-07, dated April 28, 2010.)

Inadequate Contingency Planning for the ERA System

This audit was part of our on-going effort to review NARA’s development and implementation
of the Electronic Records Archives (ERA). The purpose of this Advisory Report was to notify
the Archivist that ERA management officials have not adequately planned for a long-term
service disruption or outage should the ERA System and its primary site become unavailable.

Specifically, our review found: (1) the ERA Business Impact Analysis (BIA) is incomplete and
lacks current system information; (2) it is unknown if the ERA System (in its entirety) can be
successfully restored from backup tapes; and (3) there is no alternative backup site.

According to the National Institute of Standards and Technology Special Publication 800-34,
Contingency Planning Guide for Information Technology Systems, the BIA is a key step in the
contingency planning process which helps to identify and prioritize critical IT systems and
components. The purpose of the BIA is to correlate specific system components with the critical
services they provide. The BIA is central to determining what recovery strategies should be
implemented to ensure availability. Our review of the ERA BIA found it is incomplete and lacks
current information. For example, there are no points of contact listed along with their
respective roles, no recovery priorities, and no specific resources listed with the respective
allowable outage time for each. The BIA was developed in 2008, prior to the Executive Office
of the President (EOP) data archive being substantially populated and prior to implementation of
the Congressional data archive. As the ERA System is evolving, the recovery priorities may
need to be redefined and reprioritized in order to reflect the needs of the current stakeholders. In
addition, there are no specific resources listed with the corresponding allowable outage time.
Some functions are listed under resources such as Support for Ingest, Search, and Access of
Presidential Records. However, no specific resources (e.g. servers) are listed. According to an
ERA official, the ERA Program Management Office has designated a team to review the current
BIA. He said the team is made up of personnel from multiple disciplines within the ERA
Program Office and business representation. Without a complete and current BIA, ERA
management lacks an effective component of the contingency planning process.

Although incremental backups of ERA data are done daily, the ERA System, in its entirety, has
not been restored from backup tapes. Without adequate testing, it is unknown if the ERA System
can be restored in a timely manner from backup tapes. ERA Program Office officials
acknowledged that while limited restoration has been performed in testing and production, the
restorability of every component has not been demonstrated. ERA officials are confident the
management platform of ERA can be restored successfully and the ERA Base and Congressional
data archives are recoverable. However, of particular concern is the EOP data archive because it
is mirrored to an onsite replicated archive. Program officials feel the EOP data can be recovered
from the replica, but have serious concerns about the ability to restore the EOP data archive from
tape if the replica was not available.


SEMIANNUAL REPORT TO CONGRESS                                                               Page 15
April 1, 2010 to September 30, 2010
AUDITS
In 2006, an Interagency Agreement (IAA) was established between NARA and the Commander,
Naval Meteorology and Oceanography Command, to lease space in Stennis, MS for an
alternative processing site for the ERA System. However, for the approximately four years that
NARA paid to lease this site, it was never populated with any NARA hardware or software at all.

Without adequate contingency planning, ERA officials lack assurance the ERA System can be
successfully restored at an alternative location should its primary site be unavailable. Such a
significant risk severely limits the reliability of the system. In addition, as the system continues
to grow in terms of the number of Federal agency users and the volume of data ingested effective
contingency planning becomes even more critical. (Audit Report #10-11, dated April 29, 2010.)

No Alternative Backup Site for the ERA System

This report represents our ongoing effort to provide oversight over the Electronic Records
Archives (ERA) program which represents the largest information technology project ever
undertaken by NARA.

We found NARA expended over $2.8 million dollars to lease space at the Stennis Space Center
in Mississippi that was never put to use. Originally Congress provided funds for NARA to begin
working with the Naval Oceanographic Office at Stennis, and the facility was to serve as the
primary site for the ERA System. However, the primary ERA site shifted to Rocket Center,
West Virginia, and the Stennis site was never utilized as either the primary or back-up ERA site.
Thus, over $2.8 million was expended over approximately four years for leased space that was
never used, and NARA continues to lack an alternative ERA back-up site.

The Interagency Agreement (IAA) between NARA and the Naval Meteorology and
Oceanography Command at the Stennis Space Center was entered into on June 20, 2006, and
initially funded by Congress with a FY 2006 budget earmark. According to the prior ERA
Program Director, no one at NARA had any involvement in or knowledge of, this funding before
it was added to the appropriation. Prior to this, NARA had decided in principle that at least one
complete copy of all the records preserved in ERA had to be in a facility controlled by the
Government. According to the NARA official, given the Congressional direction and the
established capabilities at Stennis for hosting and protecting government computers, NARA
decided to use the earmark to locate the primary site for the ERA System at Stennis. However,
this never came to fruition.

The primary site is now located in West Virginia. The former ERA Program Director also stated
that before NARA reached the stage of actually installing any hardware at Stennis, the Congress,
through the office of Senator Byrd, gave NARA the option of locating primary ERA
functionality at the Allegany Ballistics Lab in Rocket Center, West Virginia. Per ERA officials,
the Rocket Center offered substantial cost avoidance advantages over the Stennis location.
However, these officials indicated that NARA opted to retain Stennis as a back-up site.
Unfortunately, Stennis has never met the definition of a back-up site, as there is, and there has
never been any ERA equipment at the site. Further, no ERA personnel have ever resided on-site
at that location and it was never used for the approximately four years it was leased.


SEMIANNUAL REPORT TO CONGRESS                                                               Page 16
April 1, 2010 to September 30, 2010
AUDITS
NARA’s 2008 Performance Budget Congressional Justification stated that by the beginning of
2008, there would be an ERA operational site in West Virginia and a back-up site in Mississippi,
which together would be capable of accepting and securely storing Presidential and Federal
government electronic records. These sites were also to provide basic preservation, search, and
retrieval capability for unclassified and Sensitive but Unclassified records from NARA’s existing
holdings and initially from four Federal agencies. When asked why hardware had not been
installed at Stennis, the former ERA Program Director responded there was never an
appropriation for a back-up system. He stated the 2008 budget language was finalized in March
2007, prior to Lockheed Martin Corporation (the ERA systems development contractor)
admitting they would not be able to meet the schedule for Initial Operating Capability in the fall
of that year. At that time, the expectation was there would be enough funds available to establish
a back-up capability at Stennis.

To date, NARA has paid $2,862,357 for space at the Stennis Space Center. The initial earmark
was for $2 million, but a NARA budget official stated it was reduced by 1% ($20,000).
According to an ERA Program Office official, there were no additional earmarks for Stennis
after the initial one. She stated there were annual obligations from the ERA appropriations for
support/operations & maintenance of the Stennis site. These funds totaled $882,357. In
December 2009, NARA notified the Naval Meteorology and Oceanography Command that it
would not be exercising the next option year, thereby terminating the agreement with Stennis on
June 20, 2010.

To adequately plan for a long-term service disruption, ERA officials need to have a contingency
plan in place that includes an alternative back-up site for the ERA System should its primary
processing site be unavailable. In the event of a disaster, NARA may not be able to fulfill its
mission and provide Federal users, as well as the public, access to critical electronic records.
(Audit Report #10-16, dated August 18, 2010.)

Similar Developmental Issues Exist for Both NARA’s ERA Program and the
FBI’s Sentinel Project
This audit, performed to advise the Archivist of the current status of the Electronic Records
Archives (ERA) Program, focused on assessing whether (a) the ERA Program is meeting cost
and schedule requirements, and (b) NARA and contractor management officials are taking
timely action to correct any actual or potential problems with program performance.

In several ways, NARA's experience with developing the ERA system is similar to that of the
Federal Bureau of Investigation’s (FBI’s) development of the Sentinel information and
Investigative Case Management System. In reports of the FBI's implementation of the Sentinel
Project, the U.S. Department of Justice (DOJ) OIG has expressed concerns about Sentinel's
overall progress, aggressive schedule, increased costs, and inability to satisfy user requirements,
similar to the concerns we have about the ERA Program.

Our review disclosed that (a) a change in system development methodology was introduced
without substantiation of the contractor’s ability to implement it, and NARA’s ability to evaluate
contractor compliance with contract requirements; (b) the ERA program could be adversely

SEMIANNUAL REPORT TO CONGRESS                                                               Page 17
April 1, 2010 to September 30, 2010
AUDITS
impacted, because senior-level officials were transferred to NARA’s new Center for Advanced
Systems and Technologies (NCAST); (c) ERA Program officials must be vigilant to ensure a
cost increase, similar to that experienced by the Sentinel Project, does not develop for the ERA
Program; and (d) like the Sentinel Project, the ERA Program has incurred schedule problems and
business functionalities have been deferred to future increments.

As a result, we believe the issues, i.e., shortcomings and delays, discussed in this report, as well
as the FBI’s experience with Lockheed Martin’s performance related to developing the Sentinel
System, are indicators of a program whose success is in jeopardy. (Audit Report #10-12, dated
May 17, 2010.)

National Historical Publications and Records Commission (NHPRC) Grant
No. RB-50061-09

The objective of this audit was to determine whether grant funds expended were used in
accordance with Federal guidelines. The performance objective of the grant project was to
improve public access to the archival and audiovisual collections held by the grantee. We
questioned $27,159, the entire cost incurred on this grant at the time of our audit due to misuse of
grant funds and poor management of the grant.

The grantee used Federal grant funds to pay organizational expenditures not associated with the
grant program in lieu of paying for authorized grant program expenses. Grant program expenses
went unpaid because the grantee, experiencing financial instability, used advanced Federal funds
to pay other expenditures they deemed more urgent. OIG audit and investigative staff
substantiated that the grantee, under the direction of its Executive Director, misused Federal
grant funds. This investigation did not reveal direct evidence to support intentional misuse of
Federal grant funds by any employee or contract employee of the grantee; however, the evidence
suggests that particular grantee staff were aware their actions relating to the NARA grant funds
were inappropriate. The details of this case were presented to an Assistant United States
Attorney in the District of Columbia who declined Federal prosecution of this case due, in large
part to the small amount of funds misused.

In addition to misuse of grant funds, the grantee lacked appropriate administrative capability to
adequately manage the grant including lack of supporting documentation/timesheets supporting
labor cost. The grant agreement identified that most Federal funds were used for labor expenses.
We found the grantee did not have an adequate accounting system in place and, as a result, the
accounting for grant funds was not accurate, current, or complete. The grantee’s cost accounting
system could not compare grant budgeted amounts to actual expenditures, and the grantee used
budget estimates (vs. actual costs) to report their cost share obligation. Finally, the grantee did
not have any written accounting procedures associated with management of Federal funds.

OMB Circular A-110 states grants recipients shall safeguard Federal funds and assure the funds
are used solely for authorized purposes, and requires the grant recipient’s financial management
system to provide the following:



SEMIANNUAL REPORT TO CONGRESS                                                                Page 18
April 1, 2010 to September 30, 2010
AUDITS
    •    accounting systems that provide accurate, current and complete information about all
         financial transactions related to each Federally-supported project;
    •   accounting records that identify adequately the source and application of funds for
        federally-sponsored activities;
    •   accounting records supported by source documentation according to Federal regulations;
    •   comparisons of outlays with the approved budgeted amounts for each award; and
    •   written procedures for determining the reasonableness, allocability and allowability of
        costs in accordance with the provisions of the applicable Federal cost principles and the
        terms and conditions of the award.

We provided a copy of our audit report to management for resolution. Based on our
recommendation, NHPRC terminated this grant and a decision by NHPRC to recover a portion
of the questioned cost is pending. (Audit Report #10-15, dated June 23, 2010.)

Process for Providing and Accounting for Information Provided to
Researchers

The objective of the audit was to determine whether controls were in place for ensuring
requested records were properly accounted for when requested and returned to storage locations.
Specifically, the audit focused on NARA’s process for making records requested available to
researchers, accounting for the records once they leave the record storage areas, and the process
for refiling the records once the researcher finishes using them.

Our audit disclosed opportunities exist to strengthen the effectiveness and controls over the
process of providing and accounting for information provided to researchers. Specifically, the
audit found NW’s Access Programs did not have a formal ongoing monitoring program for the
records retrieval and re-file process, to identify and address potential problems and ensure
compliance with program requirements. As a result (a) records were not refiled, refiled
incorrectly, or refiled in an untimely manner, (b) pull slips were incomplete, and (c) pull logs
were not maintained consistently. The audit also found: (1) a centralized, integrated database for
storing researcher requests for records was not utilized, and (2) access to record storage areas at
Archives I and II was not restricted to authorized personnel whose job responsibilities require
access. As a result of these conditions, NARA cannot adequately ensure records are properly
accounted for nor appropriately safeguard the records entrusted to them.

We made four recommendations intended to strengthen the effectiveness and controls over the
process of providing and accounting for information provided to researchers. Management
concurred with each of the recommendations included in the report. (Audit Report #10-14, dated
August 6, 2010).

NARA’s Contract for Information Technology and Telecommunication
Support
We reviewed NARA’s $56 million contract recently awarded to the Capstone Corporation to
acquire information technology and telecommunication support services for the agency. Our

SEMIANNUAL REPORT TO CONGRESS                                                              Page 19
April 1, 2010 to September 30, 2010
AUDITS
objectives for reviewing this contract were to determine if (a) the procurement was accomplished
in accordance with FAR requirements, and (b) NARA personnel adequately monitor contractor
efforts, to ensure the government gets good value for the funds expended on the contract.

To accomplish our objectives, we determined if: (a) NARA officials selected an appropriate type
of arrangement for acquiring information technology and telecommunications support services
for NARANet (NARA’s computer network), one that would motivate the contractor to perform
contractual effort effectively and efficiently; (b) subcontractor costs on the Capstone contract are
reasonable and appropriate; (c) contracting officials complied with FAR requirements prior to
the award of the Capstone contract; (d) NARA officials, including the Contracting Officer’s
Technical Representative (COTR) and performance monitors, are performing appropriate
government surveillance of contractor performance, to assure that the contractor is using
efficient methods and effective cost controls in the accomplishment of contract requirements;
and (e) the Capstone Corporation is complying with the terms and conditions of its contract with
NARA.

Our review of the new NARA Information Technology and Telecommunications Support
Services (NITTSS) contract disclosed that: (a) agency officials had the opportunity to select a
contractual arrangement with less inherent risk to NARA for acquiring these services; (b) NARA
officials did not prepare a Determination and Findings (D&F) justifying their use of a Time-and-
Materials (T&M) component to this acquisition, and their documented rational for using other
than a firm-fixed-price (FFP) order or performance-based order was inadequate; (c) the Quality
Assurance Surveillance Plan (QASP) for the Capstone contract did not adequately describe the
methodology, frequency, documentation required, or reporting on requirements; (d) contractor
performance was not being evaluated on the basis of achieving the Service Level Agreements
(SLAs) in the contract; (e) the surveillance process was poorly documented and not well-
organized for review; (f) the contractor was not complying fully with the contract’s Invoice
Submission Requirements 3; and (g) the contractor failed to satisfy contract requirements related
to the delivery of data items.

As a result, (a) most of the risk for contract performance resides with the government; (b) there is
no documented evidence to support that sufficient research and analysis was performed prior to
choosing a T&M type of contract to procure the information technology and telecommunications
support services; (c) NARA lacks assurance that the contractor is performing contractual effort
efficiently, and in accordance with contract specifications; (d) contract management officials
cannot be assured contractor billings are accurate; and (e) the operation and maintenance of
NARA's computer network could be adversely impacted as a result of the contractor not meeting
its contract deliverable requirements.

We made six recommendations that, when implemented by management, will assist the agency
in correcting the reported deficiencies, and in ensuring government interests are protected for the
contractor-provided information technology and telecommunications support services. While
management generally disagreed with the audit, they generally concurred with the
recommendations. (Audit Report #10-05, dated August18, 2010.)


3 The Contracting Officer did report that NARA officials verbally waived these requirements for the contractor.

SEMIANNUAL REPORT TO CONGRESS                                                                             Page 20
April 1, 2010 to September 30, 2010
AUDITS
Accuracy of NARA’s Performance Measurement Data
The objective of this audit was to verify the accuracy and reliability of performance data entered
into NARA’s Performance Measurement and Reporting System (PMRS). This audit is a
continuation of our oversight of NARA’s implementation of the Government Performance and
Results Act (GPRA). The GPRA of 1993 requires the head of each Federal agency to develop
and track performance and to report annually to the President and the Congress.

Of the nine performance metrics reviewed we identified problems with five. For four of these
metrics, we determined data entered into NARA’s PMRS was either inaccurate or was not
adequately documented. We identified that NARA lacks adequate management controls over the
maintenance and verification of PMRS performance data. Specifically, responsible NARA
operating units were not required to establish and follow written policies and procedures to
appropriately capture, document, and ultimately validate data entered into PMRS. Federal
regulations specifically identified under OMB Circular A-123 require agency management to
ensure reported performance data is properly documented and verified. In order for NARA to
provide accurate and reliable data, the establishment of formal, documented controls including
described processes for the maintenance and verification of performance data must be
established. Without appropriate management controls, the risk exists that performance data will
be flawed and inaccurate.

In the case of the fifth metric identified as #2.1: Percent of Scheduled Transfers of Archival
Records Transferred to NARA at the Scheduled Time, we found the data as reported, to be flawed
and misleading as it is composed of a very limited subset and not the total universe of electronic
records available for transfer. Without a caveat defining this limitation, users of this data could
readily misconstrue the content and value of this information as to embrace a far wider
population than actually defined. This could lead to inaccurate conclusions and determinations
by the stakeholder.

Management concurred with the two recommendations contained in this report which, when
implemented, will help ensure the accuracy and reliability of future data entered into PMRS.
(Audit Report #10-13, dated July 15, 2010.)

NARA’s Internal Control Program
The OIG performed an audit of NARA’s Internal Control Program. Annually, the OIG performs
a review to ensure NARA managers continuously monitor and improve the effectiveness of
internal controls associated with their programs. This continuous monitoring, in conjunction
with other periodic evaluations, provides the basis for the agency head’s annual assessment of,
and report on, internal controls as required by the Federal Managers’ Financial Integrity Act
(FMFIA) of 1982 (Public Law 97-255).

The objectives of the audit were to (1) evaluate NARA’s compliance with guidance contained in
FMFIA and the Office of Management and Budget’s (OMB) Circular A-123, Management’s
Responsibility for Internal Control, and the adequacy of the agency’s assurance statement, and

SEMIANNUAL REPORT TO CONGRESS                                                              Page 21
April 1, 2010 to September 30, 2010
AUDITS
(2) identify and evaluate the system of internal controls using the Government Accountability
Office (GAO), Standards for Internal Control in the Federal Government, for assessing and
evaluating internal controls. Specifically, we (1) examined management’s responsibilities for
internal control in Federal agencies as outlined in the Circular, and (2) reviewed the status of
open recommendations made in prior year reports. Also, to facilitate the submission of NARA’s
annual assurance statement, we performed a preliminary review of the agency assurance
statement in October 2009.

Our initial assessment of the agency’s FY 2009 assurance statement, as conveyed in our October
20, 2009 memorandum, was NARA’s statement underreported material risk associated with
Preservation and Processing programs and did not accurately reflect the breadth of risks in
NARA’s Information Security Program. This is the same conclusion we reached and conveyed
to the agency in our assessments of their FY 2007 and FY 2008 assurance statements.
Our audit revealed that at the end of the FMFIA reporting period, September 30, 2009, NARA
did not fully comply with the requirements of the Circular as a formalized internal control
program did not exist. Since then, NARA has made progress and should be commended for
establishing an implementation plan for a comprehensive internal control program. However,
while the plan was established, much more remains to be done on the internal control program.
Also, management has not closed the open audit recommendations from the last two years’ audit
reports. As a result of these conditions, NARA continues to exhibit weaknesses in internal
controls first identified in FY 2007 that degrade the effectiveness of internal controls and the
accuracy of office assurance statements.

The OIG issued its final report of the results of the audit on September 29, 2010. The report
included two recommendations intended to strengthen internal controls. Management concurred
with each of the recommendations included in the OIG’s report. (Audit Report #10-19, dated
September 29, 2010.)




SEMIANNUAL REPORT TO CONGRESS                                                           Page 22
April 1, 2010 to September 30, 2010
INVESTIGATIONS
                                  Investigations Overview
During this reporting period, the Office of Investigations (OI) opened 14 investigations and
closed 24 investigations, five of which are closed pending an administrative response from
NARA. The OI also received 74 complaints and closed 37 complaints, eight of which are closed
pending an administrative response from NARA. Fourteen NARA holdings were recovered
during the period. The OI worked with the Veterans Administration, the FBI, the Federal
Protective Service, the U.S. Secret Service, and the Department of Justice Computer Crime and
Intellectual Property Section, as well as the Offices of Inspectors General at the Veterans
Administration, the Treasury Inspector General for Tax Administration, and NASA. The OI also
worked with a number of local and state law enforcement entities to include: the Maryland
National Capitol Park and Planning Police, the Oak Forest Illinois Police Department, the Office
of the State’s Attorney in Cook County, Illinois, the Lewisville Texas Police Department, and
Baltimore County Police Department. At the close of the period, there remained 54 open
complaints and 29 open investigations. The OI continued to send our employees to nationally
recognized training programs to ensure our skill sets are comprehensive and up-to-date.


                Updates on Previously Reported Investigations
Alleged Wire Fraud, Theft of Public Money, Money Laundering
A former NARA contractor plead guilty to theft of public money and was sentenced to 15
months in prison and full restitution for his role in a scheme to embezzle $958,280 from NARA.
His co-conspirator, a former NARA employee, also plead guilty and is scheduled for sentencing
in the next reporting period.

Mishandling of Classified Documents
Continuing security violations at the Washington National Records Center (WNRC) prompted
the Office of Inspector General to initiate an investigation in the interest of National Security.
Pursuant to the completion of an inventory at NARA’s Suitland facility of Top Secret and/or
Restricted Data materials, 81 boxes of TS/RD material remain missing. NARA is determining
the amount of Secret and Confidential material potentially missing. This investigation remains
open and ongoing.

Counterfeit/Grey Market IT Contract Fraud
An IT contractor provided NARA with counterfeit and “grey market,” or resold equipment in
violation of the contract terms. The case has been accepted for prosecution by an Assistant
United States Attorney for mail and wire fraud, as well as false claims. The investigation
remains ongoing.

Indecent Exposure
During a previous reporting period, OIG received a report of a naked male seen at the National
Archives Building in Washington, DC. OIG’s investigation determined the identity of the
subject, who is a NARA employee. The employee initially denied any wrongdoing, but
ultimately confessed to removing his clothes while in a NARA research room library on this


SEMIANNUAL REPORT TO CONGRESS                                                               Page 23
April 1, 2010 to September 30, 2010
INVESTIGATIONS
occasion; and to the same conduct in and around NARA office space on an earlier occasion. The
Washington, D.C. Attorney General declined prosecution and NARA issued a deferred
suspension contingent on the employee committing no further misconduct.

Shoplifting
A woman arrested at the JFK Presidential Library in Boston for shoplifting from the library’s gift
shop pleaded guilty to theft and was sentenced to a fine of $250.

Improper Disposal of Computer Tapes
A complaint alleged that sensitive information collected on computer tapes at NARA was subject
to compromise due to a failure by NARA to adequately control the destruction of the tapes. Our
investigation revealed NARA had no adequate or uniform policy in place to address the issue of
how to securely destroy old tapes and protect the information on them. A management letter was
issued during the reporting period. NARA responded that several improvements to the process
were now in place to include training of Field Office System Administrators on transmission of
electronic media. (See Management Letter #OI-10-03, dated May 13, 2010.)

Misuse of Government Credit Card
NARA’s Financial Services Division notified the OIG of questionable charges on an employee’s
Government Travel Card. When interviewed, the subject made multiple false statements to
NARA staff, and criminal investigators, before admitting culpability. An Assistant United States
Attorney declined prosecution, and the case was referred to NARA for administrative action.
NARA suspended the employee for two days.

False Billing
The subject company was initially investigated for allegations of a bid-rigging scheme to steer
government contracts to the subject company and its alleged co-conspirators. While that charge
was not substantiated, and prosecution was declined by an Assistant United States Attorney, a
civil case remains pending for an outstanding debt of more than $250,000 owed to NARA.

Grant Fraud
The National Historical Publications and Records Commission (NHPRC) informed OIG of a
possible misuse of Federal grant funds by a NARA grantee. OIG investigators and audit staff
substantiated that the grantee, under the direction of its Executive Director, misused federal grant
funds. This investigation did not reveal direct evidence to support intentional misuse of federal
grant funds by any employee or contract employee of the grantee, however, the evidence
suggests that particular grantee staff were aware that their actions relating to the NARA grant
funds were inappropriate. The details of this case were presented to an Assistant United States
Attorney who declined prosecution of this case due in large part to the small amount of funds
misused. The case was referred back to NARA for appropriate administrative action and NARA
terminated the grant.
                              New Investigation Highlights
Inappropriate Use of Government Computer/Threats to NARA Staff
NARA’s Information Technology department reported an employee’s computer had shown
thousands of attempts to access websites blocked by NARA’s Internet security system. An

SEMIANNUAL REPORT TO CONGRESS                                                               Page 24
April 1, 2010 to September 30, 2010
INVESTIGATIONS
analysis of the websites revealed many of the sites were pornographic. The employee admitted
to accessing pornographic websites on his government computer, as well as making threats to
other NARA staff. The employee resigned in lieu of potential administrative action.

Alienated Lincoln Document
An endorsement by President Lincoln on a letter was offered for sale by an autograph dealer.
The document included markings indicating it was a federal record. The markings were
consistent with a NARA record group and the OIG’s Archival Recovery Team referred this case
to NARA recommending it be recovered and returned to NARA’s holdings. A final
determination on recovery is pending from the agency.

Harassing Phone Calls
A NARA employee received multiple threatening phone calls from an individual. The subject
was contacted but refused to stop making the calls. The local jurisdiction accepted the case for
prosecution and the subject was subsequently arrested, but failed to show for her court
appearance. She was found guilty in abstentia and an arrest warrant has been issued.

Inappropriate Security of NARA System Passwords
There are no indications of any criminal misconduct in this case. The investigation remains open
and ongoing in an administrative capacity.

Theft of Construction Materials
A NARA contractor was observed loading copper and brass scrap metal into a contract vehicle.
The contractor claimed he was delivering the material to an Archives facility for disposal.
Instead, he was delivering the material to a scrap metal dealer and selling it for personal gain.
The subject did this on multiple occasions. Subject ultimately confessed and the case was
accepted for prosecution by a District of Columbia Assistant United States Attorney. He was
subsequently arrested, found guilty, and ordered to pay restitution and perform 40 hours of
community service. The subject was removed from NARA’s contract.

Veteran Record Fraud
A local chapter of the Military Order of the Purple Heart alleged an individual was
misrepresenting his service record. In an attempt to verify his record, the individual fabricated
NARA letterhead and a NARA record form. This investigation remains open and ongoing.

Misconduct at Presidential Library Gift Shop
When there was a shortage of funds from a Presidential Library gift shop cash register, the gift
shop supervisor failed to notify library management and asked staff to contribute personal funds
to cover the shortage. An investigation substantiated that theft was occurring at the gift shop and
a subject, not the supervisor, was identified. The subject ultimately confessed to theft and the
case was accepted for prosecution by the local district attorney’s office. The supervisor’s
misconduct was pending administrative action by NARA.

Gray Market Server Components
NARA’s acquisitions division notified OIG that server components procured from a vendor had
been identified as potentially gray market products in violation of NARA’s contract. Ninety-six


SEMIANNUAL REPORT TO CONGRESS                                                              Page 25
April 1, 2010 to September 30, 2010
INVESTIGATIONS
of 121 pieces were identified by OIG as gray market. The remaining pieces could not be
identified. The Computer Crime and Intellectual Property Section of the U.S. Department of
Justice declined prosecution. NARA terminated the contract.

Rape/Identify Theft
OIG joined with the Baltimore County Police Department in the investigation of a rape
allegation against a NARA employee. The rape allegation was subsequently disproved;
however, the subject employee corresponded with the alleged victim using another NARA
employee’s identity. The identity theft portion of the case was referred to NARA for
administrative action.

Grand Jury Secrecy and Record Recovery
Potential grand jury and other federal records were inappropriately donated to an institution
outside of the federal government more than 30 years ago. These records were brought to
NARA’s attention by a researcher doing work on the particular subject matter at the outside
institution. The case was referred to the Department of Justice due to the potential exposure of
grand jury information. NARA archivists are scheduled to review the material in the next
reporting period at which time DOJ will determine how to handle any grand jury material and
NARA will determine what material should be returned to NARA.

Wrongful Access to IRS Records in Transit
The lock and seal on storage containers containing IRS records shipped to a NARA federal
records center were missing. There was no evidence that the records in the container had been
damaged. While the investigation was ongoing a subsequent incident occurred. Investigation
revealed that unknown persons were breaking into freight cars at a rail yard searching for
merchandise to steal and resell. The case was referred to NARA to implement tighter security of
these shipments. The case was also referred to the IRS for any action they deemed in their
interests.
                        Other Office of Investigation Activity
Archival Recovery Team
During this period, the Archival Recovery Team (ART) fielded 22 complaints and opened three
investigations, while 13 complaints and five investigations were closed. In addition, five non-
criminal ART cases were referred to NARA for a recovery determination. At the close of the
period, 20 ART complaints and five ART investigations remained open. In total, 14 NARA
holdings were recovered during the period.

    •   Social Media: The ART launched a Facebook page reflecting its mission at NARA. The
        page highlights the stories behind documents and artifacts alienated from NARA’s
        holdings. The site also updates Facebook visitors about upcoming shows and happenings
        with the ART, along with other newsworthy items about document thefts, investigations,
        and recoveries at other institutions. Each month features a missing document or artifact
        including a description of the item and contact information for the pubic to report leads.
        Three times a week interesting articles, such as stories of crimes committed at cultural
        institutions, are posted. Since its launch, more than 700 active users have viewed the site
        each month. Visit the site at http://www.facebook.com/archivalrecoveryteam.

SEMIANNUAL REPORT TO CONGRESS                                                              Page 26
April 1, 2010 to September 30, 2010
INVESTIGATIONS
    •   Other Media: The ART was featured in a front-page story in the LA Times and
        approached by multiple television production entities for future programming potential.
        Additionally, a C-Span television crew followed the team to a historical records show in
        Richmond, Virginia, for a special scheduled to air in the next reporting period.

    •   Records Review: The ART reviewed a large body of general correspondence created by
        the U.S. Army Chief of Ordnance covering the period from 1903-1941. The records were
        examined in an effort to locate signatures of important Army personalities such as
        Douglas MacArthur, John J. Pershing, George S. Patton and Dwight D. Eisenhower.
        Such correspondence was located and recommendations will be made to have the
        documents secured. Additionally, ART conducted a survey of high value
        items/documents held in the Eisenhower and Truman Libraries and the Central Plains
        Region. It was determined from this exercise that measures are in place to secure such
        items and all were accounted for.

    •   Outreach: As part of the ART’s outreach program working with individuals and groups
        who may have interactions with historic records, Office of Investigations staff manned
        displays at the following shows to educate the public about the NARA OIG and ART.

        -- April 2010: the Northern Virginia Relic Hunters Civil War show in Fredericksburg,
        VA.

        -- May 2010: the Ohio Civil War Collectors Show in Mansfield, OH.

        -- June 2010: the Gettysburg Battlefield Preservation Association Civil War Collector’s
        Show.

        -- August 2010: the National Civil War and Antique Arms Show in Richmond, VA.

        -- April 2010: ART members presented at the Company of Military Historians 61st
        Annual meeting in Reston, VA. ART joined the FBI in the panel discussion.


Computer Crimes Unit
During the reporting period, the Computer Crimes Unit (CCU) provided digital forensic support
to several criminal investigations. The CCU completed the examination of digital media to
assess the exposure to NARA resulting from the loss of digital media containing Personally
Identifiable Information (PII) and other sensitive information. In addition, the CCU completed a
Report of Investigation relating to defective computer hard drives containing sensitive personally
identifiable information (PII) being returned to a maintenance contractor without being wiped or
degaussed. The CCU also visited the Financial Crime Enforcement Network (FinCEN) operated
by the Department of the Treasury on several occasions to run database searches related to
criminal investigations.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 27
April 1, 2010 to September 30, 2010
INVESTIGATIONS
                                        OIG Hotline

The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept e-mail communication from
NARA’s internal network or the Internet through the Hotline e-mail system. Walk-ins are
always welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

    •   By telephone
        Washington, DC, Metro area: (301) 837-3500
        Toll-free and outside the Washington, DC, Metro area: (800) 786-2551
    •   By mail
        NARA OIG Hotline
        P.O. Box 1821
        Hyattsville, MD 20788-0821
    •   By e-mail
        oig.hotline@nara.gov
    •   By online referral form
        http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition.

Where appropriate, referrals are made to the OIG audit staff, NARA management, or external
authorities. Hotline contacts are captured as complaints in the Office of Investigations. The
following table summarizes complaints received and Hotline activity for this reporting period:

                     Complaints received                                     74
                     Complaints closed pending response from NARA             8
                     Complaints closed final                                 29
                     Complaints open to Investigations                        8


                          Contractor Self Reporting Hotline
To comply with the self-reporting requirements in the Federal Acquisition Regulation, a web-
based form has been created to allow NARA contractors to satisfy the requirement they notify
the OIG, in writing, whenever the contractor has credible evidence that a principal, employee,
agent, or subcontractor of the contractor has committed a violation of the civil False Claims Act
or a violation of Federal criminal law involving fraud, conflict of interest, bribery, or gratuity
violations in connection with the award, performance, or closeout of a contract or any related
subcontract. The form can be accessed through the OIG’s home page, for found directly at:
http://www.archives.gov/oig/contractor-form/index.html


SEMIANNUAL REPORT TO CONGRESS                                                              Page 28
April 1, 2010 to September 30, 2010
TOP TEN MANAGEMENT CHALLENGES
                                          Overview
Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission
and help NARA achieve its strategic goals, we have aligned our programs to focus on areas we
believe represent the agency’s most significant challenges. We have identified those areas as
NARA’s top ten management challenges.

Based on Congressional interest, GAO conducted an evaluation of NARA’s Information Security
Program and NARA’s ability to effectively carry out its mission of overseeing the management
of Federal records while preserving those of historic and intrinsic value. Final reports from these
audits were not issued during the reporting period, and they may impact management challenges.

1.      Electronic Records Archives
NARA’s mission with the Electronic Records Archives (ERA) is to build a system accommodating the
government’s vast amounts of electronic records stored in past, present, and future formats. The
challenge is to deliver and maintain a functional system for preserving and providing access to our
nation’s electronic records for as long as needed. Electronic records are vital to how our government
works, and their preservation through the ERA will define what information future generations will be
able to access and use. However, the ERA Program has experienced delivery delays, budgeting
problems, and contractor staffing problems. Initial Operating Capacity (IOC) for the ERA Program was
delayed from September 2007 until June 2008, and even then program functions available at IOC were
less than the original requirements. Also, the component to handle all White House records, the
Executive Office of the President (EOP) System, was separated out due to delays, and pursued down a
separate line of development. The success of this mission-critical program is uncertain. NARA staff
was not able to clearly define what the ERA Program would be able to do, or what functions it would
provide to NARA, when the program was scheduled to reach Full Operating Capability in 2012.

In August 2010, OMB placed the ERA Program on its high- priority list of 26 high-risk IT projects
selected from across the Federal government. The major problems NARA must remedy for ERA are the
lack of detailed plans for the final two increments, low usage of the system, and need for improved
strategic planning. NARA’s actions planned to correct these problems include preparing a detailed plan
that focuses on accelerated user adoption of the ERA System, and updating ERA implementation plans
to reflect an end to system development on September 30, 2011. System development had been planned
to extend through March 2012. As a result of unknown funding levels and the decision by OMB to end
ERA development at the end of FY 2011, NARA is planning on deferring implementation of 20 percent
of the original system requirements. Agency officials reported that, as of the beginning of August 2010,
41 percent of the requirements have been implemented, and the plan is to have 80 percent implemented
by the end of FY 2011.

2.      Improving Records Management
Part of NARA’s mission is safeguarding and preserving the records of our government, thereby ensuring
people can discover, use, and learn from this documentary heritage. NARA provides continuing access

SEMIANNUAL REPORT TO CONGRESS                                                              Page 29
April 1, 2010 to September 30, 2010
TOP TEN MANAGEMENT CHALLENGES
to the essential documentation of the rights of American citizens and the actions of their government.
The effective management of these records is key to accomplishing this mission. NARA must work
with Federal agencies to ensure the effective and efficient appraisal, scheduling, and transfer of
permanent records, in both traditional and electronic formats. The major challenge is how best to
accomplish this component of our overall mission while reacting and adapting to a rapidly changing
technological environment in which electronic records, particularly e-mail, proliferate. In short, while
the ERA system is intended to work with electronic records received by NARA, we need to ensure the
proper electronic and traditional records are in fact preserved and sent to NARA in the first place.

NARA also directs the Electronic Records Management (ERM) initiative, one of 24 government-wide
initiatives under the E-Government Act of 2002. The ERM initiative will provide guidance to agencies
in managing and transferring their permanent electronic records to NARA, in an increasing variety of
data types and formats. In June 2008, GAO recommended NARA develop and implement an approach
to provide oversight of agency electronic records management programs, to provide adequate assurance
that NARA guidance is effective and the agencies are following electronic records guidance. NARA, its
Government partners, and Federal agencies are challenged with determining how best to manage
electronic records and how to make ERM and e-Government work more effectively.

3.      Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers’ Financial
Integrity Act reporting process beginning in FY 2007. NARA’s Office of Information Services (NH)
conducted an independent assessment of the IT security program using the Program Review for
Information Security Management Assistance (PRISMA) methodology developed by the National
Institute for Standards and Technology (NIST) in FY 2007. The assessment stated NARA’s policy and
supporting procedures for IT security were weak, incomplete, and too dispersed to be effective. The
majority of the weaknesses identified during the assessment remain open.

IT security continues to present major challenges for NARA, including physical security of IT hardware
and technical vulnerabilities within our electronic systems themselves and how NARA operates them.
The confidentiality, integrity, and availability of our electronic records and information technology
systems are only as good as our IT security infrastructure. A GAO review conducted in 2010 identified
significant weaknesses in access controls, and other information security controls, impairing NARA’s
ability to ensure the confidentiality, integrity, and availability of its information systems. Each year,
risks and challenges to IT security continue to be identified. NARA must ensure the security of its data
and systems or risk undermining the agency’s credibility and ability to carry out its mission.

4.      Expanding Public Access to Records
The records of a democracy’s archives belong to its citizens. NARA’s challenge is to more aggressively
inform and educate our customers about the services we offer and the essential evidence to which we
can provide access. Unfortunately, over half of NARA’s textual holdings have not been processed to
allow efficient and effective access to these records. To meet its mission, NARA must work to ensure it
has the processes and resources necessary to establish intellectual control over this backlog of
unprocessed records.


SEMIANNUAL REPORT TO CONGRESS                                                             Page 30
April 1, 2010 to September 30, 2010
TOP TEN MANAGEMENT CHALLENGES
Another challenge for NARA, given society’s growing expectation for easy and near-immediate access
to information on-line, will be to provide such access to records created digitally (i.e., “born digital”)
and to identify those textual records most in demand so they can be digitized and made available
electronically. NARA’s role in ensuring the timeliness and integrity of the declassification process of
classified material held at NARA is also vital to public access.

5.      Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records to
meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to ensure its
own facilities, as well as those used by other Federal agencies, are in compliance with these regulations;
and effectively mitigate risks to records which are stored in facilities not meeting these new standards.

6.      Preservation Needs of Records
As in the case of our national infrastructure (bridges, sewer systems, etc.), NARA holdings grow older
daily and face degradation associated with time. This affects both traditional paper records, and the
physical media that electronic records and audio/visual records are stored on. The Archivist previously
identified preservation as a material weakness under the Federal Managers’ Financial Integrity Act
reporting process. However, in FY 2006, preservation was downgraded to a reportable condition, and it
is currently being monitored as a significant deficiency. The OIG strongly disagrees with this.
Preserving and providing access to records is a fundamental element of NARA’s duties to the country,
and NARA cannot provide access to records unless it can preserve them for as long as needed. The
backlog of records needing preservation action continues to grow. NARA is challenged to address this
backlog and future preservation needs, including the data integrity of electronic records. The challenge
of ensuring NARA facilities meet environmental standards for preserving records (see OIG Challenge
#5) also plays a critical role in the preservation of Federal records.

7.      Improving Project Management
Effective project management, particularly for IT projects, is essential to obtaining the right equipment
and systems to accomplish NARA’s mission. Complex and high-dollar contracts require multiple
program managers, often with varying types of expertise. NARA is challenged with planning projects,
developing adequately defined requirements, analyzing and testing to support acquisition and
deployment of the systems, and providing oversight to ensure effective or efficient results within costs.
Currently, IT systems are not always developed in accordance with established NARA guidelines.
These projects must be better managed and tracked to ensure cost, schedule, and performance goals are
met.

GAO reports NARA has been inconsistent in its use of earned value management (EVM), a
project management approach providing objective reports of project status and early warning
signs of cost and schedule overruns. As a result, NARA did not fully implement practices
necessary to make effective use of EVM, limiting the reliability of its progress reports.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 31
April 1, 2010 to September 30, 2010
TOP TEN MANAGEMENT CHALLENGES
GAO also reported NARA does not document the results of briefings to its senior management
oversight group, and thus there is little evidence this body reviewed and approved the progress of
the ERA Program. There is also little evidence the group identified or took appropriate
corrective actions, or ensured such actions were taken and tracked to closure. Without adequate
oversight evaluating project progress, including documenting feedback and action items from
senior management, NARA will not be able to ensure ERA is being implemented at acceptable
cost and within reasonable and expected time frames.

Inconsistent use of key project management disciplines like Earned Value Management limits
NARA’s ability to effectively manage projects and accurately report on their progress.

8.      Physical and Holdings Security
The Archivist has identified security of collections as a material weakness under the FMFIA reporting
process. Document and artifact theft is not a theoretical threat; it is a reality NARA has been subjected
to time and time again. NARA must maintain adequate levels of security to ensure the safety and
integrity of persons and holdings within our facilities. This is especially critical in light of the security
realities facing this nation and the risk our holdings may be pilfered, defaced, or destroyed by fire or
other man-made and natural disasters.

9.      Contract Management and Administration
The GAO has identified Commercial Services Management (CSM) as a government-wide initiative.
The CSM initiative includes enhancing the acquisition workforce, increasing competition, improving
contract administration skills, improving the quality of acquisition management reviews, and
strengthening contractor ethics requirements. Effective contract management is essential to obtaining
the right goods and services at a competitive price to accomplish NARA’s mission. NARA is
challenged to continue strengthening the acquisition workforce and to improve the management and
oversight of Federal contractors. NARA is also challenged with reviewing contract methods, to ensure a
variety of procurement techniques are properly used in accordance with Federal laws and regulations.

10.      Strengthening Human Capital
The GAO has identified human capital as a government-wide high risk, explaining it is critical to
ensure agencies have the talent and skill mix they need to address their current and emerging
human capital challenges. In August 2009, NARA published its first Strategic Human Capital
Plan (SHCP), covering FYs 2009 through 2014. The SHCP discusses strategies for achieving
each of its five human capital goals. However, NARA has yet to develop an agency-wide
workforce plan. Based on NARA’s SHCP, the agency is supposed to develop and deploy an
integrated workforce plan enabling it to hire and retain “the right talent, at the right time, in the
right place,” by December 31, 2014. While NARA should be commended for some
accomplishments, such as implementing their 2010 Hiring Reform Action Plan, more work
remains to be done.

Earlier this year the Partnership for Public Service ranked NARA the lowest out of 31 large
Federal agencies in its "Best Places to Work in the Federal Government" rankings. The rankings

SEMIANNUAL REPORT TO CONGRESS                                                                 Page 32
April 1, 2010 to September 30, 2010
TOP TEN MANAGEMENT CHALLENGES
are based on employee responses to the Federal Human Capital Survey (FHCS) administered
biannually by the U.S. Office of Personnel Management (OPM). In response to the 2010 FHCS,
NARA’s Employee Viewpoint Survey Task Force is now conducting a follow-up to the OPM
survey gather feedback and ideas to help make NARA one of the best places to work in the
Federal Government. Responses to the survey will be used by the task force to develop an
agency-wide action plan to address issues in the areas of Leadership, Communication, Diversity,
and Training and Development. NARA’s challenge is to adequately address its workforce’s
concerns and assess its human capital needs in order to effectively recruit, retain, and train
people needed to achieve its mission, both now and in the future.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 33
April 1, 2010 to September 30, 2010
REPORTING REQUIREMENTS
MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS
          AMENDED, AND OTHER LAWS
REQUIREMENT             SUBJECT                                             PAGE(s)

Section 4(a)(2)         Review of legislation and regulations               7, 10

Section 5(a)(1)         Significant problems, abuses, and deficiencies      2 – 5, 14 – 22,
                                                                            23 – 26

Section 5(a)(2)         Significant recommendations for corrective action   2 – 5, 14 – 22

Section 5(a)(3)         Prior significant recommendations unimplemented     40

Section 5(a)(4)         Summary of prosecutorial referrals                  36 – 37

Section 5(a)(5)         Information or assistance refused                   40

Section 5(a)(6)         List of reports issued                              38

Section 5(a)(7)         Summaries of significant reports                    2 – 5, 14 – 22

Section 5(a)(8)         Audit Reports—Questioned costs                      39

Section 5(a)(9)         Audits Reports—Funds put to better use              40

Section 5(a)(10)        Prior audit reports unresolved                      40

Section 5(a)(11)        Significant revised management decisions            40

Section 5(a)(12)        Significant revised management decisions            40
                        with which the OIG disagreed

P.L. 110-181            Annex of completed contract audit reports           39

P.L. 111-203            Reporting on OIG peer review                        11




SEMIANNUAL REPORT TO CONGRESS                                                       Page 34
April 1, 2010 to September 30, 2010
REPORTING REQUIREMENTS
STATISTICAL SUMMARY OF INVESTIGATIONS

Investigative Workload
        Complaints received this reporting period                                       74
        Investigations pending at beginning of reporting period                         33
        Investigations opened this reporting period                                     14
        Investigations closed this reporting period                                     24
        Investigations carried forward this reporting period                            29
Categories of Closed Investigations
        Fraud                                                                           3
        Conflict of Interest                                                            0
        Contracting Irregularities                                                      3
        Misconduct                                                                      5
        Larceny (theft)                                                                 9
        Other                                                                           4
Investigative Results
        Cases referred – accepted for prosecution                                       5
        Cases referred – declined for prosecution                                       5
        Cases referred – pending prosecutive decision                                   1
        Arrest                                                                          6
        Indictments and informations                                                    1
        Convictions                                                                     2
        Fines, restitutions, judgments, and other civil and administrative recoveries   3
        NARA holdings recovered                                                         14
Administrative Remedies
        Employee(s) terminated                                                          0
        Employee(s) resigned in lieu of termination                                     2
        Employee(s) suspended                                                           2
        Employee(s) given letter of reprimand or warnings/counseled                     2
        Employee(s) taking a reduction in grade in lieu of administrative action        0
        Contractor (s) removed                                                          2




SEMIANNUAL REPORT TO CONGRESS                                                           Page 35
April 1, 2010 to September 30, 2010
REPORTING REQUIREMENTS
                        SUMMARY OF PROSECUTORIAL REFERRALS
                                        Requirement 5(a)(4)
Accepted for Prosecution

Theft of Construction Materials
A NARA contractor was observed loading copper and brass scrap metal into a contract vehicle.
The contractor claimed he was delivering the material to an Archives facility for disposal.
Instead, he was delivering the material to a scrap metal dealer and selling it for personal gain.
The subject did this on multiple occasions. Subject ultimately confessed and the case was
accepted for prosecution by a District of Columbia Assistant United States Attorney. He was
subsequently arrested, found guilty, and ordered to pay restitution and perform 40 hours of
community service. The subject was removed from NARA’s contract.

Shoplifting
A woman arrested at the JFK Presidential Library in Boston for shoplifting from the library’s gift
shop plead guilty to theft and was sentenced to a fine of $250.

Harassing Phone Calls
A NARA employee received multiple threatening phone calls from an individual. The subject
was contacted but refused to stop making the calls. The local jurisdiction accepted the case for
prosecution and the subject was subsequently arrested, but failed to show for her court
appearance. She was found guilty in abstentia and an arrest warrant has been issued.

Misconduct at Presidential Library Gift Shop
When there was a shortage of funds from a Presidential Library gift shop cash register, the gift
shop supervisor failed to notify library management and asked staff to contribute personal funds
to cover the shortage. An investigation substantiated that theft was occurring at the gift shop and
a subject, not the supervisor, was identified. The subject ultimately confessed to theft and the
case was accepted for prosecution by the local district attorney’s office. The supervisor’s
misconduct was pending administrative action by NARA.

Credit Card Theft
A NARA employee reported the theft of personal credit cards on NARA premises. While the
theft did occur, it could not be determined that it took place on NARA property. Two subjects
were arrested for using the stolen credit cards. The case was accepted for prosecution by the
local jurisdiction.

Declined for Prosecution

Inappropriate Use of Government Computer/Threats to NARA Staff
NARA’s Information Technology department reported that an employee’s computer had shown
thousands of attempts to access websites that were blocked by NARA’s Internet security system.
An analysis of the websites revealed that many of the sites were pornographic. The employee
admitted to accessing pornographic websites on his government computer, as well as making
threats to other NARA staff. The employee resigned in lieu of potential administrative action.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 36
April 1, 2010 to September 30, 2010
REPORTING REQUIREMENTS
Gray Market Server Components
NARA’s acquisitions division notified the OIG that server components procured from a vendor
had been identified as potentially gray market products in violation of NARA’s contract.
Ninety-six of 121 pieces were identified by OIG as gray market. The remaining pieces could not
be identified. The Computer Crime and Intellectual Property Section of the U.S. Department of
Justice declined prosecution. NARA terminated the contract.

IT Intrusion
A NARA server located in Rocket Center, West Virginia, was accessed without authorization. A
log examination revealed evidence of human intervention and the case was referred to the OIG.
An OIG Investigation revealed the server was accessed without authorization by an unidentified
individual to act as a platform to launch further attacks against other machines, and not for the
purpose of deliberately infiltrating a government network or to access government data. The
Department of Justice (DOJ) Computer Crimes and Intellectual Property Section (CCIPS)
declined this case for prosecution.

Veteran’s Record Request Fraud
An individual submitted multiple requests for her ex-husbands military records claiming he was
deceased and she was his next of kin. The subject admitted her ex-husband was not deceased,
and she did not have a power of attorney, but she was unable to obtain his signature to request
documents she wanted. An Assistant U.S. Attorney declined prosecution.

Indecent Exposure
During a previous reporting period, OIG received a report of a naked male seen at the National
Archives Building in Washington, DC. OIG’s investigation determined the identity of the
subject, who is a NARA employee. The employee initially denied any wrongdoing, but
ultimately confessed to removing his clothes while in a NARA research room library on this
occasion and to the same conduct in and around NARA office space on an earlier occasion. The
Washington, D.C. Attorney General declined prosecution and NARA issued a deferred
suspension contingent on the employee committing no further misconduct.

Pending Prosecutorial Determination

Grand Jury Secrecy and Record Recovery
Potential grand jury and other federal records were inappropriately donated to an institution
outside of the federal government more than 30 years ago. These records were brought to
NARA’s attention by a researcher doing work on the particular subject matter at the outside
institution. The case was referred to the Department of Justice due to the potential of exposure
of grand jury information. NARA archivists are scheduled to review the material in the next
reporting period at which time DOJ will determine how to handle any grand jury material and
NARA will determine what material should be returned to NARA.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 37
April 1, 2010 to September 30, 2010
        REPORTING REQUIREMENTS
                                             LIST OF REPORTS ISSUED
                                                      Requirement 5(a)(6)
Report      Title                                          Date              Questioned        Unsupported    Funds Put to
No.                                                                          Costs             Costs          Better Use
10-05       Review of NARA’s Contract for
            Information Technology and                      08/27/2010              0                 0            0
            Telecommunications Support Services
10-07       Audit of NARA’s Network
                                                            04/28/2010              0                 0            0
            Infrastructure
10-09       System Review Report on the U.S.
            International Trade Commission’s
                                                            05/27/2010              0                 0            0
            Office of Inspector General Audit
            Organization
10-11       Inadequate Contingency Planning for
            the Electronic Records Archives                 04/29/2010              0                 0            0
            System
10-12       Similar Development Issues Exist for
            both NARA’s Electronic Records
                                                            05/07/2010              0                 0            0
            Archives Program and the FBI’s
            Sentinel Project
10-13       Audit of the Accuracy of NARA’s
                                                            07/15/2010              0                 0            0
            Performance Measurement Data
10-14       Audit of the Process for Providing and
            Accounting for Information Provided             08/06/2010              0                 0            0
            to Researchers
10-15       Audit of the National Historical
            Publications and Records Commission
                                                            06/23/2010          $27,159             $27,159        0
            Grant No. RB 50061-09 Historical
            Publication and Records Commission
10-16       No Alternative Backup Site for the
                                                            08/18/2010              0                 0            04
            Electronic Records Archives System
10-19       Audit of NARA’s Internal Control
                                                            09/29/2010              0                 0            0
            Program




        4 This audit identified 2.8 million in wasted funds which could not be put to better use.

        SEMIANNUAL REPORT TO CONGRESS                                                                          Page 38
        April 1, 2010 to September 30, 2010
REPORTING REQUIREMENTS
                    AUDIT REPORTS WITH QUESTIONED COSTS
                                      Requirement 5(a)(8)

                                           Number of               DOLLAR VALUE
Category                                                       Questioned          Unsupported
                                            Reports
                                                                 Costs                Costs

A. For which no management decision
                                                0                  $0                   $0
   has been made by the commencement
   of the reporting period
B. Which were issued during the
                                                1                $27,159              $27159
   reporting period
   Subtotals (A + B)                            1                $27,159              $27,159
C. For which a management decision has
                                                0                  $0                   $0
   been made during the reporting period
   (i) dollar value of disallowed cost          0                  $0                   $0
   (ii) dollar value of costs not
                                                0                  $0                   $0
   disallowed
D. For which no management decision
   has been made by the end of the              1                $27,159              $27,159
   reporting period
E. For which no management decision
                                                0                  $0                   $0
   was made within 6 months



            ANNEX ON COMPLETED CONTRACT AUDIT REPORTS

Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
information on completed contract audit reports containing significant audit findings be included
as an annex to this report. While the OIG completed audits on the ERA contract during this
period, they were generally program audits as opposed to contract audits, and the DCAA audits
of the ERA program this period do not rise to the level of Section 845 requirements. Similarly,
Audit #10-05 of NARA’s contract for Information Technology and Telecommunication Support
Services (ITTSS) was performed this period as well, but does not rise to the level of Section 845
requirements. Further information on that audit can be found on page 19.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 39
April 1, 2010 to September 30, 2010
REPORTING REQUIREMENTS
              AUDIT REPORTS WITH RECOMMENDATIONS THAT
                      FUNDS BE PUT TO BETTER USE
                                        Requirement 5(a)(9)


              CATEGORY                                NUMBER                     DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                         1                       $35,685
   the reporting period
B. Which were issued during the reporting
                                                            0                            $0
   period
   Subtotals (A + B)                                        1                       $35,685
C. For which a management decision has
                                                            1                       $35,685
   been made during the reporting period
   (i) dollar value of recommendations
                                                            1                       $35,685
        that were agreed to by management
        Based on proposed management
                                                            1                       $35,685
        action
        Based on proposed legislative
                                                            0                            $0
        action
   (ii) dollar value of recommendations
        that were not agreed to by                          0                            $0
        management
D. For which no management decision has
   been made by the end of the reporting                    0                            $0
   period
E. For which no management decision was
   made within 6 months of issuance                         0                            $0




                               OTHER REQUIRED REPORTS

REQUIREMENT                                  CATEGORY                               SUMMARY
5(a)(3)                    Prior significant recommendations unimplemented        None
5(a)(5)                    Information or assistance refused                      None
5(a)(10)                   Prior audit reports unresolved                         None
5(a)(11)                   Significant revised management decisions               None
5(a)(12)                   Significant revised management decisions with which    None
                           the OIG disagreed




SEMIANNUAL REPORT TO CONGRESS                                                                 Page 40
April 1, 2010 to September 30, 2010
